              U.S. Department of Agriculture
                 Office of Inspector General




 Rural Utilities Service
Rural or Native Alaskan
    Village Grants




                       Audit Report 09099-2-SF
                               September 2010
                               U.S. Department of Agriculture
                                Office of Inspector General
                                  Washington, D.C. 20250



DATE:          September 09, 2010


REPLY TO
ATTN OF:       09099-2-SF

TO:            Jonathan S. Adelstein
               Administrator
               Rural Utilities Service

ATTN:          John Purcell
               Director
               Financial Management Division

FROM:          Gil H. Harden      /s/
               Assistant Inspector General
                for Audit

SUBJECT:       Rural Utilities Service – Rural or Native Alaskan Village Grants


This report presents the results of our audit of the subject program. Your July 14, 2010,
response to the draft report, excluding attachments, is included in the report in its entirety.
Excerpts from your response and the Office of Inspector General’s positions have been
incorporated into the relevant sections of the report.

We accept Rural Development’s management decision for all of the recommendations,
except for Recommendations 4, 6, and 8. The actions needed to reach management decision
are identified in the Findings and Recommendations section of the report. Please follow your
internal agency procedures in forwarding final action correspondence to the Office of the
Chief Financial Officer.

In accordance with Department Regulation 1720-1, please furnish a reply within 60 days,
describing the corrective action taken or planned and the timeframes for implementation of
those recommendations for which management decision has not yet been reached. Please
note that the regulation requires a management decision to be reached on all
recommendations within a maximum of 6 months from report issuance.

We appreciate the cooperation and assistance provided by your staff during our audit.
Table of Contents

Executive Summary.................................................................................. 1
Background & Objectives ........................................................................ 4
Background ............................................................................................... 4
Objectives ................................................................................................. 5
Section 1: Deobligation ........................................................................... 6
Finding 1: RUS Reallocated Grant Funds That Should Have Been
Deobligated ............................................................................................... 6
        Recommendation 1.......................................................................... 9
        Recommendation 2.......................................................................... 9
        Recommendation 3.......................................................................... 9
        Recommendation 4........................................................................ 10
        Recommendation 5........................................................................ 10
Section 2: Documentation ..................................................................... 11
Finding 2: Inadequate Documentation to Support Expenses ............. 11
        Recommendation 6........................................................................ 12
        Recommendation 7........................................................................ 12
Finding 3: Timesheets Processed Without Required Signatures ...... 13
        Recommendation 8........................................................................ 14
Scope and Methodology ........................................................................ 15
Abbreviations .......................................................................................... 17
Exhibit A: Summary of Monetary Results ............................................. 18
Exhibit B: Chronology of Events Affecting FY 2004 Grant Agreement
Between RUS and DEC........................................................................... 19
Exhibit C: USDA Rural Development Alaska’s “Stalled Project”
definition for Rural Alaska Village Grants............................................. 20
Exhibit D: Inadequately Supported Costs ............................................. 23
Exhibit E: DEC Timesheets Not Signed By Employee And/Or
Supervisor ............................................................................................... 24
Agency’s Response................................................................................ 26
Rural or Native Alaskan Village Grants

Executive Summary
In response to concerns raised by Rural Development’s Alaska State Office,1 we conducted an
audit of Rural Utilities Service’s (RUS) rural or Native Alaskan village grants.2 These Federal
grants, which are administered by Rural Development’s State office, offer 75 percent of the
project development costs to provide villages with potable water and waste disposal services.
The applicant must obtain 25 percent of the project development costs from State or local
contributions. Rural Development’s State office relies on agencies such as Alaska’s Department
of Environmental Conservation (DEC) to further administer the projects. From fiscal years
(FYs) 2000 to 2005, RUS awarded 6 rural Alaskan village grants totaling approximately
$142 million to help fund 150 water and waste projects.

We focused our audit on the Rural Development State office’s concerns, but weather affected
our ability to visit villages to achieve two of our objectives: determining if villages could operate
and maintain their water and waste systems, and testing the adequacy of monitoring controls in
place to track the projects’ progress. With regard to our other two objectives, nothing came to
our attention to indicate that the required 25 percent from State or local contributions was not
met. However, we did conclude that Rural Development’s State office internal controls over
grant spending should be strengthened in relation to deobligating grant funds and verifying
project expenses.

Deobligation

In FY 2004, RUS signed a grant agreement with DEC to fund up to $26.7 million in water and
waste systems for Alaskan villages. Among other projects, the agreement allocated $2.2 million
for the completion of a water plant in Tuluksak. By July 2008, work on this project had not
begun.3 According to Federal regulation, obligated RUS grant funds that are not needed to
complete a proposed project must be deobligated.4

Instead, DEC requested in June 2005 that $750,000 be reallocated from the Tuluksak project to
pay for administration costs. Rural Development’s State office agreed and amended the grant
agreement accordingly.5 Since then, DEC has been reimbursed a total of $607,915 from this
category without adequate supporting documentation such as invoices or itemized expenses,
leaving a remaining unexpended amount of $142,085. Rural Development’s State office has
asked DEC to either provide itemized expenses or supporting documents when submitting its
request for reimbursement, but DEC contends that it is not required to do so. While we agree

1
  The Rural Development State office concerns are the four objectives identified on page 4 of this report.
2
  RUS is an agency of Rural Development. Hereinafter, these grants will be referred to as rural Alaskan village
grants throughout the report.
3
  Rural Development State officials interviewed during our audit did not know why the Tuluksak project never
started.
4
  7 CFR 1780.49(a)(2) states that rural Alaskan village grants must be serviced in accordance with subpart B..
7 CFR 1780.44(e) [subpart B] in turn requires the deobligation of unneeded grant funds.
5
  The amended grant agreement permitted the shifting of $750,000 to a new category, “VSW [Village Safe Water]
project and program administration.”
    Audit Report 09099-02-SF                                                                                      1
that these specific requirements are not mandated, the Office of Management and Budget (OMB)
does require that costs incurred by State agencies receiving grant funds be adequately
documented.6 In addition, Departmental guidance requires Federal agencies to ensure that grant
funds are properly used and achieve their intended results.7

Around April 2008, Rural Development’s State office developed a written, though not formally
approved, policy that permitted a committee (including DEC and Rural Development State
officials) to declare a project “stalled” and then shift its funds to other projects.8 Under this
informal policy—hereinafter referred to as the “stalled” policy—Rural Development’s State
office amended the FY 2004 grant agreement again in July and September 2008 to reallocate a
total of $441,474 from the Tuluksak project to other projects. As of May 2009, approximately
$1 million remains obligated to the Tuluksak project.

Rural Development’s national officials did not formally approve the “stalled” policy, but
permitted the practice in Alaska because the State’s long, severe winters and the need to
complete water and waste disposal projects in progress make it critical to accomplish work
where the opportunity exists. Given such constraints and the large amount of funds awarded in
each FY 2000-2005 grant agreement, Rural Development’s National Office permitted the
reallocation of funds from “stalled” projects. A Rural Development national official stated,
though, that since FY 2006 the agency awards grants on a per-project basis, which precludes
such reallocation in the future.

However, we note that—including the $1 million for the Tuluksak project—$5.4 million
remained subject to reallocation for 5 “stalled” projects included on 4 of the 6 grants awarded
during FYs 2000-2005. Accordingly, we recommend that Rural Development’s National Office
subject the Alaska State Office’s “stalled” policy to a formal approval process that considers the
policy’s regulatory appropriateness and takes suitable action depending on the outcome
(e.g., deobligating remaining funds for “stalled” projects).

Inadequate Documentation

We also determined that there was inadequate documentation to support some expenses for two
other RUS-financed projects. In one case, the nonprofit Alaska Native Tribal Health Consortium
(ANTHC) charged $369,000 to a FY 2003 project without adequate support.9 For example,
ANTHC charged expenses to the project even though the accompanying invoices did not list the
project’s code. In addition, we found that DEC charged $73,000 in salary to a FY 2000 water
project without the supporting timesheets having been signed both by supervisors and by
workers as required.

6
  OMB A-87, Attachment A, Section C, Number 1(j), revised May 10, 2004.
7
  Department Regulation 1110-2, Management Accountability and Control, dated April 14, 2004.
8
  The committee identifies projects as “stalled” when they are substantially behind schedule; then the committee
decides which other projects need supplemental funding. If the Rural Development State Office approves the
reallocation request, the grant agreement is amended accordingly. According to a Rural Development national
official, a grant year’s obligated funding should only be used towards projects identified within that specific grant
agreement.
9
  ANTHC is a nonprofit organization established to manage all statewide health services and programs benefiting
Alaska Natives.
    Audit Report 09099-02-SF                                                                                            2
Recommendation Summary

We recommend that Rural Development’s National Office instruct the State office to stop
using the “stalled” policy and stop reallocating funds until the policy is subjected to a formal
approval process. If the policy is not approved, the National Office should deobligate
remaining funds for “stalled” projects according to regulation, including any remaining
unexpended funds pertaining to the “VSW project and program administration” category. In
addition, Rural Development’s State office should implement internal controls to ensure that
expenses submitted for reimbursement are allowable and that funds are used for their
intended purposes. Finally, the State office should substantiate the $607,915, $369,000, and
$73,000 in unsupported expenses. If appropriate, the State office should collect its share
(i.e., the percentage that RUS funded) of any unsupported costs.

Agency Response

In its July 14, 2010, written response to the report, the Rural Development National Office
concurred with the report findings and recommendations. Rural Development’s written
response is included in the report.

OIG Position

We accept Rural Development’s management decision for all of the recommendations except
for Recommendations 4, 6, and 8. The actions needed to reach management decision are
identified in the Findings and Recommendations section of the report.




Audit Report 09099-02-SF                                                                       3
Background & Objectives

Background
RUS is an agency within Rural Development that works to improve the quality of life in rural
America. As part of its mission, RUS provides loans and grants for water and waste projects,
such as constructing a sewage facility. In 1993, rural Alaskan village grants were established to
remedy dire sanitation conditions by providing funds for water and waste disposal systems. 10
Rural Development’s Alaska State Office is responsible for administering this grant program
through authorized appropriations.

The 1996 Farm Bill, which amended the Act, authorized grants up to $15 million in each fiscal
year (FY) from 1996 through 2002.11 In February 2006, the Act was amended to make grants up
to $30 million available for each FY from 2001 through 2007.12 Currently, as amended by the
2008 Farm Bill, grants for up to $30 million are made available for each FY from 2008 through
2012. During FYs 2000 to 2005, RUS has granted approximately $142 million to help pay for
150 water and waste-related projects in Alaskan villages.

Rural Development’s Alaska State Office relies on DEC’s “Village Safe Water” (VSW) program
and the Alaska Native Tribal Health Consortium (ANTHC) to further manage RUS-funded water
and waste disposal system projects.13 VSW personnel administer funding and provide technical
and financial support in designing and constructing these systems in the State’s smaller, more
remote communities. Occasionally, VSW awards funding through ANTHC, which then assists
the communities.

To qualify for a rural Alaskan village grant: (1) the applicant must be a rural or Native Alaskan
village,14 (2) the median household income of the village cannot exceed 110 percent of the
Statewide nonmetropolitan household income,15 (3) a dire sanitation condition must exist within
the village,16 and (4) the applicant must obtain 25 percent of the project development costs from
State or local contributions.




10
   The Alaskan RUS grants were established by the Consolidated Farm and Rural Development Act of 1993.
11
   Federal Agriculture Improvement and Reform Act of 1996.
12
   Public Law 109-171 dated February 8, 2006.
13
   ANTHC is a nonprofit organization that in 1998 assumed all responsibilities of the Indian Health Service “with
regard to planning, designing, and construction of sanitation facilities projects and the provision of operation and
maintenance technical assistance for Alaska Native communities.”
14
   7 CFR 1780.49(b)(2) [Edition January 1, 2008] defines a rural or Native Alaskan village as a “community which
meets the definition of a village under State statutes and does not have a population in excess of 10,000 inhabitants.”
15
   7 CFR 1780.3 [Edition January 1, 2008] defines the statewide nonmetropolitan median household income as “the
median household income of the State’s nonmetropolitan counties and portions of metropolitan counties outside of
cities, towns, or places of 50,000 or more population.”
16
   A dire sanitation condition exists if: (a) recurring instances of waterborne communicable disease have been
documented, or (b) no community-wide water and sewer system is present and individual residents must haul water
to or human waste from their homes and/or use pit privies.
     Audit Report 09099-02-SF                                                                                        4
Objectives
Based on concerns raised by Rural Development’s Alaska State Office, our objectives were to
determine whether: (1) grant funds were adequately supported and used for program purposes,
(2) communities could operate and maintain their water and waste systems, (3) monitoring
controls were in place to adequately track projects’ status, and (4) State or local entities
contributed the required 25 percent share of projects’ costs. Weather affected our ability to visit
villages to achieve two of our objectives: determining if villages could operate and maintain
their water and waste systems, and testing the adequacy of monitoring controls in place to track
the projects’ progress.




   Audit Report 09099-02-SF                                                                           5
Section 1: Deobligation

Finding 1: RUS Reallocated Grant Funds That Should Have Been
Deobligated
The Rural Development Alaska State Office permitted Federal grant funds not needed at the time
for their approved projects to be shifted to other projects instead of being deobligated and
returned to the Government. This became a written policy that Rural Development’s National
Office never formally approved but nonetheless permitted due to the large amount of grant funds
awarded in each year from FY 2000 through 2005, and the need to make headway on completing
water and waste projects in progress when the opportunity exists. As a result, approximately
$1.2 million of $2.2 million intended to be used for one project that never started was reallocated
elsewhere instead of being deobligated.17 In addition, approximately $4.4 million for 4 other
“stalled” projects was subject to reallocation.18

According to Federal regulation, obligated RUS grant funds that are not needed to complete a
project must be deobligated.19 However, the Rural Development State office’s practice (and later
written policy) permitted the shifting of funds elsewhere.

For example, in FY 2004, RUS signed a grant agreement with DEC awarding up to $26.7 million
towards building or improving water and waste disposal systems in various villages, including
approximately $2.2 million for the completion of a water plant in Tuluksak.20 On June 6, 2005,
DEC requested that the Rural Development State office reduce the allocation for Tuluksak by
$750,000 and approve these funds to be used for administrative costs.21 According to the
request, these funds were “not required at [that] time” for the Tuluksak project. On June 8, 2005,
the then-director22 of the Rural Development State office forwarded a letter to DEC agreeing
with its request, and amended the FY 2004 RUS grant agreement to allow “moving that same
amount [$750,000] to a new category for VSW [Village Safe Water] project and program
administration.”

The most recent acting director23 stated that she was not aware of any regulations or policy that
would have authorized the former director to reallocate funds in this manner. She also could not



17
   The $1.2 million represents the sum of (a) $750,000 allocation to the “VSW project and program administration”
category from the FY 2004 Tuluksak project, and (b) $441,474 allocated to other projects once the Tuluksak project
was declared “stalled”.
18
   The $2.2 million FY 2004 Tuluksak project reviewed had the largest allocation of obligated funding. We did not
review the other 4 “stalled” projects. The $4.4 million is the total unexpended balance remaining for these 4
projects at the time they were declared “stalled”.
19
   7 CFR 1780.49(a)(2) states that rural Alaskan village grants must be serviced in accordance with subpart B.
7 CFR 1780.44(e) [subpart B] in turn requires the deobligation of grant funds not needed to complete a project.
20
   See exhibit B for the chronology of events that affected the FY 2004 grant agreement.
21
   An administrative cost can be, for example, the cost associated with engaging an accounting firm to provide
project-related payroll services.
22
   This individual left the agency in mid-2006.
23
   This individual took over as acting director shortly after the previous acting director ended his service in mid-
January 2009.
     Audit Report 09099-02-SF                                                                                      6
explain the need for this administrative expense category (especially since each project’s scope
of work includes administrative costs).

In July 2008, a committee that included Rural Development State office and DEC officials
declared the Tuluksak project “stalled” because it had not started. (Rural Development State
office staff interviewed during our audit did not know why the project had never started.)
According to a written but informal policy developed by Rural Development’s State office and
implemented around April 2008, a construction project could be declared “stalled” if it was
substantially behind schedule from the date of initial grant funding. 24 Once a project was
designated as “stalled,” no more grant money from that agreement could be used towards the
project in the future, and any remaining obligated funds from that project could be reallocated to
“new” or not “stalled” projects. (See exhibit C.)

Rural Development’s national officials did not formally approve the “stalled” policy, but
permitted it in Alaska because the need to complete water and waste disposal projects in progress
and the State’s long, severe winters make it critical to accomplish work when the opportunity
exists. Given such constraints and the large amount of funds awarded in each FY 2000-2005
grant agreement, Rural Development’s National Office permitted the reallocation of unexpended
grant funds from “stalled” projects to those that were making headway if the projects were on the
same agreement as the “stalled” project. We found, though, that the within-grant restriction was
neither reflected in the Rural Development State office’s written policy nor always followed in
practice. Consequently, in July and September 2008 when the then-acting director25 approved
two additional amendments reallocating a total of $441,474 in Tuluksak project funds from the
FY 2004 agreement, $363,812 of that money went to a project on a FY 2003 agreement.26 In
addition to the policy not limiting reallocation to projects included on the same agreement, the
policy permitted the shifting of “stalled” funds to “new” projects as well.

A Rural Development national official stated that, as of FY 2006, grants are awarded on a per-
project basis; if there are remaining obligated funds not needed to complete the projects, the
funds will be deobligated. However, for grants awarded during FYs 2000-2005, $5.4 million for
5 “stalled” projects—including $1 million for the FY 2004 Tuluksak project—remained subject
to reallocation. Therefore, we recommend that Rural Development’s National Office instruct the
Alaska State Office to forgo using the “stalled” policy until the policy goes through a formal
approval process. If the policy is deemed inappropriate, Rural Development’s National Office
should deobligate any remaining funds for “stalled” projects. If it is deemed appropriate, the
National Office should ensure that the policy incorporates all national requirements.

We also recommend that—to ensure that the expenses were reasonable and allowable—Rural
Development’s State office review expenses reimbursed from the $750,000 reallocated in 2005
from the FY 2004 Tuluksak project to the “VSW project and program administration” category.

24
   According to the written policy, a project can be declared “stalled” if it is “(a) 6 years and older, (b) 5 years from
initial funding with substantial ongoing construction and 25% or more funds remaining, or (c) 4 years from initial
funding with no substantial ongoing construction and 50% or more funds remaining.”
25
   This individual served as acting director from approximately November 2006 until mid-January 2009.
26
   A total of $381,474 was reallocated under Amendment 2 (dated July 23, 2008), and $60,000 under Amendment 3
(dated September 24, 2008).
     Audit Report 09099-02-SF                                                                                           7
As of June 2009, DEC had been reimbursed a total of $607,915 from this category without
adequate documentation, such as invoices, to support expenses—leaving a balance of $142,085.

According to the most recent acting director, DEC does not submit supporting documents (e.g.,
invoices or itemized expenses) with its reimbursement requests. To obtain reimbursement, DEC
submits a “Request for Advance or Reimbursement” (Form 270) that gives the total Federal
funding requested from a specified grant year for all projects and (when applicable) the
administration category. DEC also sends with Form 270 a subsidiary report that includes a
project-by-project breakdown of the total expenses requested for reimbursement. However,
DEC does not further itemize these expenses or include invoices which leave the Rural
Development State office no assurance that the expenses are reasonable and allowable.

In May 2007, the Rural Development State office notified DEC that its reimbursement requests
did not include sufficient supporting documentation to allow the agency to monitor project
budgets and expenses. DEC contended that including such documentation would require it to
create another funding source to pay for the increased workload that would come with handling,
tracking, and submitting all the supporting invoices, receipts, etc. As a compromise, Rural
Development’s State office proposed that DEC submit along with Form 270 a spreadsheet that
itemizes expenses by description. DEC responded that Office of Management and Budget
(OMB) circulars require it to submit neither supporting documents nor itemized expense
descriptions, and so DEC continued without providing either. For example, in August 2007
DEC requested a reimbursement of $12,943 for administration but did not detail the costs that
comprised this total or include supporting invoices.

We agree with DEC that OMB circulars governing grants to State agencies do not specify that
agencies requesting reimbursement must submit supporting documents or itemize expenses.
However, OMB Circular A-87, which establishes principles for determining whether costs
incurred by State agencies under Federal award are allowable, does require that costs be
adequately documented.27 Further, Departmental guidance requires Federal agencies to execute
controls that ensure that their programs are achieving their intended results and that resources are
being properly used.28

Accordingly, we recommend that Rural Development’s State office establish internal controls to
monitor costs requested for reimbursement from Federal grant funds—such as RUS’ rural
Alaskan village grants—to verify that they are allowable. These controls need not be unduly
burdensome to DEC. For example, instead of requiring all supporting invoices, the controls
could require that only a sample of invoices be tested. Alternatively, supporting documents
could be required for only those expenses that exceed a certain dollar threshold. However, all
previous expenses reimbursed for the “VSW project and program administration” category
should be reviewed to ensure that they were reasonable and allowable.




27
     OMB A-87, Attachment A, Section C, Number 1(j), revised May 10, 2004.
28
     Department Regulation 1110-2, Management Accountability and Control, dated April 14, 2004.
       Audit Report 09099-02-SF                                                                    8
Recommendations to Rural Development’s National Office

Recommendation 1
Instruct the Rural Development Alaska State Office to forego use of the “stalled” policy and
the reallocation of funds until the policy and practice has been subjected to a formal approval
process.

Agency Response
Rural Development agreed with this recommendation. In its July 14, 2010, response, Rural
Development concluded the use of the stalled policy should cease and that any remaining
funds should be deobligated.

OIG Position
We accept Rural Development’s management decision on this recommendation.

Recommendation 2
If the “stalled” policy is approved, ensure that it incorporates all National Office
requirements in addition to procedures for documenting the specific reasons why a project is
declared “stalled.”

Agency Response
Rural Development agreed with this recommendation. In its July 14, 2010, response, Rural
Development indicated that the “stalled policy” was no longer being used.

OIG Position
We accept Rural Development’s management decision on this recommendation.

Recommendation 3
If the “stalled” policy is not approved, deobligate any remaining balances for “stalled”
projects according to regulation, including any remaining balance for the “VSW project and
program administration” category.

Agency Response
Rural Development agreed with this recommendation. In its July 14, 2010, response, Rural
Development concluded the use of the stalled policy should cease, and its review resulted in
a deobligation request of $4,593,991.




Audit Report 09099-02-SF                                                                       9
OIG Position
We accept Rural Development’s management decision on this recommendation.

Recommendations to the Rural Development Alaska State Office

Recommendation 4
Determine whether the $607,915 and any subsequent reimbursements for the “VSW project
and program administration” category were reasonable, allowable expenses. Collect any
ineligible reimbursements.

Agency Response
Rural Development agreed with this recommendation. Rural Development concluded that
the State of Alaska was able to provide documentation supporting the allowability of
$540,171.05. Rural Development stated it was informed by the State of Alaska that
timesheets supporting the remaining $67,743.95 (from FY 2004-2005) had been destroyed.
Rural Development also stated that unless appropriate documentation was submitted, it
would begin collection of the unsupported costs.

OIG Position
We agree with Rural Development’s corrective action on this recommendation. To achieve
management decision, Rural Development needs to provide OIG with a copy of the bill for
collection and documentation that an account receivable for $67,743.95 was established, or a
justification for not recovering the questioned amount.

Recommendation 5
Implement an internal control process that ensures that expenses submitted for
reimbursement are allowable and that funds are used for intended purposes.

Agency Response
Rural Development agreed with this recommendation. In its July 14, 2010, response, Rural
Development agreed that improved internal controls would benefit the program
administration. Rural Development National and State office are working with the State of
Alaska to implement an internal control process that improves accountability and is
administratively efficient for both entities. Rural Development plans to have the
recommendation completed by October 31, 2010.

OIG Position
We agree with Rural Development’s management decision on this recommendation.



Audit Report 09099-02-SF                                                                  10
Section 2: Documentation

Finding 2: Inadequate Documentation to Support Expenses
We determined that there was inadequate documentation to support $367,815 in expenses
charged to an RUS-financed FY 2003 project. This occurred because the Alaska Native Tribal
Health Consortium’s (ANTHC) accounting department lacked controls to ensure that supporting
documents (e.g., invoices) contained the required project code information prior to being
processed for payment. Also, ANTHC was unable to locate supporting documents for an
additional $1,069 in questioned costs. As a result, there is a lack of assurance that $276,663 (i.e.,
RUS’ 75 percent share of the total $368,884 in questioned costs) was incurred to accomplish
work associated with this project.

OMB Circular A-122,29 which establishes cost principles for nonprofits that receive Federal
grants, states: “To be allowable under an award, costs must . . . be adequately documented.”
The circular also states: “Any costs allocable to a particular award . . . may not be shifted to
other Federal awards.”

In January 2004, ANTHC assumed responsibility for a project located in the City of St. Michael
that had been funded through a FY 2003 grant agreement between RUS and DEC.30 Of the total
funding obligated, RUS contributed $2.1 million to this project, or 75 percent of the total estimated
project cost of $2.8 million.

Within St. Michael, ANTHC managed several projects having different funding sources. For
example, there were multiple projects—financed by both RUS and the U.S. Environmental
Protection Agency (EPA)—whose intended purpose included work on a piped water and sewer
system. ANTHC assigns a code to each project and uses it to capture expenses associated with
that specific project. The code for the RUS-financed project we reviewed was R38.

During our review, we determined that the supporting documents for $368,884 in expenses
charged to R38:

       a) did not have a project code to indicate that these costs were incurred for this project
          ($358,047), or
       b) listed a project code other than R38 ($9,768), or
       c) could not be located by ANTHC ($1,069).

For example, we found an invoice totaling $521,306 for shipping expenses. ANTHC charged
$333,039 of this amount to the R38 project, but the supporting documents did not specify that the
costs were incurred for this specific project. (See exhibit D for details on unsupported expenses.)



29
     OMB Circular A-122, “Cost Principles for Non-Profit Organizations”, revised May 10, 2004.
30
     The grant agreement was dated April 16, 2003.
       Audit Report 09099-02-SF                                                                     11
We notified an ANTHC official31 concerning these unsupported expenses. She said that the
documentation for some of these costs might be at the shipping and receiving yard, but she could
not demonstrate why the questioned costs were charged to R38. For example, she did not know
why a parts invoice for $12,130 that did not specify a project code was charged to R38. When
asked what written procedures were in place for handling invoices without project codes (or with
codes different from the purchase order), she said that the accounting department had none.

Accordingly, we recommend that the questioned expenses be verified. If they cannot, Rural
Development’s State office should collect its share of these reimbursed costs. We also
recommend that the State office instruct DEC to require ANTHC to develop accounting
procedures adequate to ensure that the source documents contain the required project code
information prior to payment.

       Recommendations to Rural Development’s State Office

       Recommendation 6
       Verify through adequate supporting documents that the $368,884 in questioned costs
       pertained to the St. Michael project (project code R38). Collect RUS’ share of any costs that
       cannot be verified.

       Agency Response
       Rural Development agreed with this recommendation. Rural Development concluded that
       ANTHC was unable to provide support for $8,180.02 of the $368,884. Rural Development
       stated that it will initiate collection of its portion of the $8,180.02.

       OIG Position
       We agree with Rural Development’s corrective action for this recommendation. To achieve
       management decision, Rural Development needs to provide OIG with a copy of the bill for
       collection and documentation that an account receivable for its portion of the $8,180.02 was
       established, or a justification for not recovering the questioned amount.

       Recommendation 7
       Instruct DEC to require ANTHC to develop accounting procedures to ensure that supporting
       source documents contain the required project code information prior to payment.

       Agency Response
       Rural Development agreed with this recommendation. Rural Development stated that it will
       review the current accounting procedures implemented in 2008 and direct ANTHC to make
       changes as needed. Rural Development plans to have the recommendation completed by
       October 31, 2010.

       OIG Position

31
     This individual oversees the accounting department.
       Audit Report 09099-02-SF                                                                   12
     We accept Rural Development’s management decision for this recommendation.

Finding 3: Timesheets Processed Without Required Signatures
Of the 42 timesheets we reviewed in an August 2007 pay period for an RUS-financed project, 38
did not have the signatures required to certify them for payment.32 This occurred because an
accounting firm contracted by DEC to perform payroll functions had accepted the on-site
supervisor’s submission of timesheets as confirmation that they were true and correct. As a
result, DEC was reimbursed $54,722 without the required signatures.33

OMB requires that Federal awards for salaries and wages be approved by a responsible official
according to the practices of the governmental unit that received the grant.34 Alaska’s
administrative manual requires that completed timesheets be signed by both the worker and
supervisor.35

DEC contracted with a construction management company to build a lagoon for an FY 2000
RUS-financed project located in the City of Buckland. Under the contract, the company was
required to provide an on-site superintendent to oversee the project and review timesheets. The
timesheet used to record work hours included a signature block for both the worker and the
supervisor.

However, when we reviewed a 2007 pay period’s timesheets for the FY 2000 Buckland project,
we found that 38 timesheets had not been signed by the supervisor and that 9 of these had also
not been signed by the workers (see exhibit E).36 Despite these timesheets not having the
required certifications, the accounting firm processed them for payment.

We discussed this issue with the accounting firm’s staff, who said that workers were not always
available when timesheets were prepared for submission because they may have been working in
remote locations on other projects. Therefore, the accounting firm accepted the supervisor’s
submission of the timesheet as confirmation of the hours worked.

By processing these timesheets for payment without certification, DEC does not have the
required assurance that the $72,963 was for labor costs incurred on the project. DEC stated that
the on-site superintendent is responsible for reviewing and approving timesheets. Accordingly,
we recommend that Rural Development’s State office obtain adequate documentation to support
that the employees in question worked the hours claimed on the project and collect back any
grant funds paid for unsupported work.




32
   This payroll expense for our sampled project was judgmentally selected based on its high dollar value.
33
   RUS’ 75 percent share of the total $72,963 in questioned costs.
34
   OMB Circular No. A-87, Attachment B 8h (1), dated May 2004.
35
   Alaska Administrative Manual (AAM) 260, dated January 2007.
36
   The pay period was August 12 through August 25, 2007.
     Audit Report 09099-02-SF                                                                               13
Recommendation to Rural Development’s State Office

Recommendation 8
Obtain adequate documentation to support that the questioned amount of $72,963 in salary
expenses was incurred for work performed on the FY 2000 Buckland project. Collect RUS’
share of any costs that cannot be verified.

Agency Response
Rural Development agreed with this recommendation. Rural Development’s response
indicated that the State of Alaska will not be able to provide the required documentation for
six employee’s timesheets. Therefore, Rural Development will begin collection of the
$14,468 associated with these timesheets.

OIG Position
We accept Rural Development’s corrective action for this recommendation. To achieve
management decision, Rural Development needs to provide OIG with a copy of the bill for
collection and documentation that an account receivable for its portion of the $14,468 was
established, or a justification for not recovering the questioned amount.




Audit Report 09099-02-SF                                                                     14
Scope and Methodology
The purpose of our audit was to assess concerns raised by Rural Development’s Alaska State
Office about rural Alaskan village grants. To make our assessment, we performed audit work at
Rural Development’s Alaska State Office in Palmer, Alaska; the State of Alaska’s Department of
Environmental Conservation in Anchorage, Alaska; and the Alaska Native Tribal Health
Consortium in Anchorage, Alaska. We conducted our audit work between October 2008 and
May 2009.

RUS awarded one grant for each fiscal year (2000 to 2005). Through these 6 grants,
approximately $142 million was obligated to be used towards expenses associated with 150
water- and waste-related projects. The 150 projects included both capital improvement and
feasibility study projects.

From capital improvement projects (excluding the feasibility study projects), we judgmentally
selected 22 draw requests from 11 projects based on (a) a large portion of the obligated grant
funds allocated to the specific projects, and (b) large funding reimbursements made at a single
time. Upon visiting DEC and ANTHC, we further limited the judgmental sample selection to 11
draw requests from 7 projects, partly because some of the draw requests were advances and
could not be directly traced to source documents (e.g., invoices). In addition, we judgmentally
selected 1 out of the 5 projects declared “stalled” based on the large portion of obligated grant
funds allocated to the project.

We performed the following key steps and procedures:

   ·   Reviewed applicable laws, statutes, regulations, policies, and procedures pertaining to
       rural Alaskan village grants.

   ·   Obtained records from Rural Development’s State office identifying the rural Alaskan
       village grants awarded as of FY 2000.

   ·   Interviewed Rural Development State officials to determine the procedures for
       monitoring the grantees’ compliance with the terms of their grant agreements, especially
       pertaining to ensuring grant funds are used for allowable costs and intended purposes.

   ·   Reviewed Rural Development’s State office project files and other documents to obtain a
       general understanding of the sampled projects, including how the cost-sharing
       requirement was met.

   ·   Interviewed Rural Development State officials to obtain an understanding concerning the
       reallocation of obligated grant funds from the sampled “stalled” project to other projects.

   ·   Reviewed Rural Development State office grant agreement documentation pertaining to
       the reallocation of obligated grant funds from the sampled “stalled” project.

   ·   Reviewed the “stalled” policy developed by Rural Development’s State office.

   Audit Report 09099-02-SF                                                                      15
   ·   Interviewed a Rural Development national official to determine how the “stalled” policy
       was to be used, why it was needed, and whether it was formally approved.

   ·   Interviewed DEC officials to determine their procedures for ensuring agency compliance
       (and subgrantee compliance) with the terms of the grant agreements, especially pertaining
       to ensuring grant funds are used for allowable costs and intended purposes.

   ·   Reviewed source documents provided by DEC for costs charged to our sampled projects.

   ·   Interviewed Indian Health Service officials to obtain an understanding of the agency’s
       role in administering rural Alaskan village grants.

   ·   Interviewed ANTHC officials to determine the procedures for monitoring grantees’
       compliance with the terms of their grant agreements, especially pertaining to ensuring
       that grant funds are used for allowable costs and intended purposes.

   ·   Interviewed ANTHC officials to determine the monitoring process for tracking the status
       of projects funded with rural Alaskan village grants.

   ·   Reviewed source documentation provided by ANTHC for costs charged to the sampled
       projects, as well as other pertinent project documentation.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on the objectives accomplished for this audit. The accomplished audit objectives included
determining whether (1) grant funds were adequately supported and used for program purposes
and (2) State or local entities contributed the required 25 percent share of projects’ costs. We
believe that the evidence obtained provides a reasonable basis for our findings and conclusions
based on the accomplished audit objectives.




   Audit Report 09099-02-SF                                                                     16
Abbreviations
ANTHC       Alaska Native Tribal Health Consortium
CFR         Code of Federal Regulations
DEC         Alaska Department of Environmental Conservation
EPA         United States Environmental Protection Agency
OIG         Office of Inspector General
OMB         Office of Management and Budget
RUS         Rural Utilities Service
USDA        United States Department of Agriculture
VSW         Village Safe Water




  Audit Report 09099-02-SF                                    17
Exhibit A: Summary of Monetary Results



     Recommendation
         Number              Description                  Amount                Category
                                                                          FTBPTBU38:
           3
                        Deobligations                        $5,520,73637 Deobligations
                                                                          Questioned Costs
           4            Inadequately                                      Recovery
                                                                $607,915
                        Supported Costs                                   Recommended
                                                                          Questioned Costs
           6            Inadequately                                      Recovery
                                                               $276,66339
                        Supported Costs                                   Recommended
                        Timesheets Lacked                                 Questioned Costs
           8            Appropriate                                       Recovery
                                                                $54,72240
                        Signatures                                        Recommended

This table represents the summary of monetary results.




37
   Remaining unexpended RUS funds pertaining to the “VSW project and program administration” category
($142,085), FY 2004 Tuluksak project ($1,000,917), and 4 other “stalled” projects ($4,377,734).
38
   FTBPTBU means “Funds to be put to better use”.
39
   RUS’ 75% share of the total $368,884 questioned costs.
40
   RUS’ 75% share of the total $72,963 questioned costs.
      Audit Report 09099-02-SF                                                                          18
Exhibit B: Chronology of Events Affecting FY 2004 Grant Agreement
Between RUS and DEC

           Date                                         Action Taken
 July 13, 2004             Executed Federal FY 2004 grant agreement between RUS and DEC
 June 6, 2005              DEC letter to Rural Development’s State office requesting that
                           obligated RUS funds allocated to FY 2004 Tuluksak project ($2.2
                           million) be reduced by $750,000 and moved to a new category
                           called “VSW project and program administration”
 June 8, 2005              Rural Development State office letter (which serves as Amendment
                           1 to FY 2004 grant agreement) concurring with DEC’s June 6th
                           request
 June 22, 2005             Amendment 1 signed by DEC
 July 1, 2005              Amendment 1 signed by the former Rural Development State
                           Director
 April 2008 (estimated)    Most recent Acting Rural Development State Director believed
                           Rural Development’s State office began implementing the stalled
                           policy around this date but neither she nor the National Office could
                           recall the policy ever being formally approved
 July 10-30, 2008          Committee including Rural Development State office and DEC
                           officials signed off declaring the Tuluksak project stalled
 July 10, 2008             DEC letter requesting amendment to FY 2004 grant to reallocate
                           unexpended funding from the stalled Tuluksak project to other
                           projects
 July 23, 2008             Rural Development State office letter (which serves as Amendment
                           2 to FY 2004 grant agreement) concurring with DEC’s July 10th
                           request
 July 30, 2008             Amendment 2 acknowledged and accepted by DEC (Amendment
                           approved through signature by the then-Acting Rural Development
                           State Director)
 September 24, 2008        DEC letter requesting amendment to FY 2004 grant to reallocate
                           unexpended funding from the stalled Tuluksak project to other
                           projects
 September 25, 2008        Rural Development State office letter (which serves as Amendment
                           3 to FY 2004 grant agreement) concurring with DEC’s September
                           24th request
 October 20, 2008          Amendment 3 signed by DEC (Amendment approved through
                           signature by the then-Acting Rural Development State Director)


This table represents a chronology of events affecting the FY 2004 grant agreement between
RUS and DEC.



  Audit Report 09099-02-SF                                                                   19
Exhibit C: USDA Rural Development Alaska’s “Stalled Project”
definition for Rural Alaska Village Grants
The goals of this policy are to address funds administration and provide guidance on appropriate
monitoring targets to optimize project completion rates, clarify program oversight, and to reduce
stalled balances in the USDA Rural Development Rural Alaska Village Grant (RAVG) program.

In the past, USDA Rural Development awarded a single grant to the State of Alaska for the
planning, design and construction of water and wastewater infrastructure in rural Alaska. A
typical work plan for this annual grant included 20-25 individual projects. If a single project in
the work plan is delayed or stalled this single project prevents the closure of the entire grant.
The following policy establishes a process that will identify delayed or stalled projects early in
the life of the grant and address the project accordingly so that the grant can be utilized more
effectively and closed in a timely manner.

I. Optimize Project Completion Rates

USDA Rural Development is responsible for establishing and maintaining effective internal
controls to ensure priority projects are not only funded but properly monitored and completed
within established parameters. A typical RAVG construction project schedule is as follows:

       Year One        Project Development and design with 80% of the funds remaining at the
                       end of the first year

       Year Two        Initial procurement, shipping of materials and project mobilization with
                       50% of the funds remaining at the end of the second year

       Year Three      Construction is initiated and additional material procurement with 30% of
                       the funds remaining at the end of this third year

       Year Four       Construction is completed with 10% of the funds remaining at the end of
                       the fourth year

       Year Five       One year warranty and punch list items are addressed and project
                       demobilized. Final Reports are prepared and delivered.

II. Definition of Delayed Projects and Required Corrective Action Plans

Delayed construction projects may significantly impact overall project construction budgets and
completion dates. Construction projects are considered delayed if the project schedule has
slipped by one year as compared to a typical RAVG project as described in Section I.

At the end of each calendar year the State of Alaska and USDA RURAL DEVELOPMENT shall
review all USDA RURAL DEVELOPMENT RAVG funded projects to determine if a project is
considered delayed. This review will utilize the defined design milestones in the State of
Alaska’s project reporting system referred to as Anipa. Any design and or construction project
that has surpassed the end of the second year and does not have a completed design will be

   Audit Report 09099-02-SF                                                                       20
considered delayed and will be placed on a corrective action schedule leading to project
completion within a five-year project timeframe.

III. Definition of Stalled Projects

Given the recent unprecedented increase in construction costs USDA RURAL DEVELOPMENT
can no longer ensure that a stalled project has a reasonable chance that the overall environmental
objective of the project can be obtained. A typical RAVG construction project schedule and
expenditure rates is illustrated below. Expenditure rates can vary depending on the type of
project. For example, a lagoon will have a low expenditure rate early on in the project while a
water storage tank will have a high expenditure rate early on in the project.




A project that is substantially behind schedule compared to a typical RAVG construction project
will be considered stalled. The definition of a stalled project is dependent on the project type and
is defined below for the various project types:

A design and or construction project is considered stalled if it is:

       (a) 6 years and older

       (b) 5 years from initial funding with substantial ongoing construction with 25% or more
           funds remaining; or

       (c) 4 years from initial funding with no substantial ongoing construction and 50% or
           more funds remaining.

A planning/ study project is considered stalled if it is:

       (d) Older than two years

A proposed project listed on the congressionally mandated statewide three year priority list is
considered stalled if it is:
   Audit Report 09099-02-SF                                                                       21
       (e) Older than three years with no significant progress, designs being completed or
           ongoing construction.

IV. Management Control and Reallocation of Funds for Stalled Projects

At the beginning of each calendar year, the State of Alaska and USDA RURAL
DEVELOPMENT shall review all USDA RURAL DEVELOPMENT RAVG funded projects to
determine if a project is considered stalled as defined above. This review will utilize the defined
construction milestones and financial information in the State project reporting system referred
to as Anipa. In the event a project falls into one of the stalled categories, the program will
reallocate any unexpended funds identified for the stalled projects to project(s) that are not
stalled or to new project(s) with the concurrence of USDA Rural Development. If the review
determines that a stalled project has made recent progress and can be completed within a
reasonable timeframe a waiver from this policy may be granted on a project specific basis.
USDA RURAL DEVELOPMENT grant regulations in RUS Instruction 1780 provide guidance
for the termination of grant funds, whether for non-compliance or convenience, which would
allow the grantee or sub-grantee to collect for obligations, such as contracts, incurred prior to
termination.

The reallocation of project funds requires prior approval by USDA RURAL DEVELOPMENT.
If the total amount of stalled projects in any single USDA RURAL DEVELOPMENT grant is
greater than 10% of the USDA RURAL DEVELOPMENT grant award, a revised grant work
plan will be required, consistent with Section 7(G) on the RAVG “Three Party MOU” of 2006.

If a design and or construction project is determined to be stalled, (a) (b) or (c) above, and the
unexpended funds are reallocated to a new project(s), the stalled project may be placed on the
congressionally mandated statewide three year priority list to be considered for future funding.

If a planning project, (d) above, or a statewide three year list project, (e) above, is determined to
be stalled, a new application will be required to be considered for future funding.

This policy provides flexibility to appropriately plan and support essential infrastructure projects
in rural Alaska. In addition, this policy allows USDA RURAL DEVELOPMENT to meets its
responsibility to ensure that there is a reasonable chance that overall environmental objectives
can be obtained. Moreover, it allows the USDA RURAL DEVELOPMENT and the State of
Alaska to ensure steady progress in providing access to clean water and adequate sanitation in
rural Alaska.




   Audit Report 09099-02-SF                                                                          22
Exhibit D: Inadequately Supported Costs

                                                                                             Project
                                                                                 No           Code
     Check              Invoice                 Invoice       Questioned       Project        Other          Lost
      No.    Check Date Date                      No.           Amt.            Code        Than R38       Evidence
149968       06/10/2005      05/31/2005       53105          $     12,130          x
151148       09/16/2005      09/09/2005       182588         $       1,560                       x
150779       08/19/2005      08/09/2005       15561442       $       4,102         x
150779       08/19/2005      08/09/2005       15561453       $       4,102         x
150779       08/19/2005      08/09/2005       15561464       $       4,102         x
149752       05/23/2005      05/02/2005       40561581       $          28                      x
149385       04/15/2005      03/10/2005       40354646       $         487         x
150808       08/26/2005      08/02/2005       27512219       $         839                      x
150104       06/30/2005      06/02/2005       18987990       $          85         x
147989       11/30/2004      10/27/2004       11131422       $         305                      x41
147612       10/26/2004      08/18/2004       408-010        $    333,039          x
42
                                                             $       1,069                                     x
43
                                                             $       7,036                       x
TOTAL                                                        $    368,884


This table represents the questioned amounts pertaining to a FY 2003 RUS-financed project.




41
   We are questioning the charging of 2 of the 3 total items (cylinder and boots) included in the shipment. The
purchase order and shipping request, respectively, for these 2 items indicated a Q77 project code. ANTHC’s
Director of Operations provided support indicating that Q77 is an EPA-funded project.
42
   The $1,069 questioned amount represents 3 separate travel expense line items charged to the R38 account. Check
number(s) and invoice number(s) associated with these expenses were not requested.
43
   The $7,036 questioned amount represents an employee’s payroll expense charged to the R38 account. Check
number and invoice number (if applicable) were not requested.

      Audit Report 09099-02-SF                                                                                 23
Exhibit E: DEC Timesheets Not Signed By Employee And/Or
Supervisor


                                  Timesheet   Timesheet
 Sample                           Not Signed  Not Signed
Employee         Position        By Employee By Supervisor   Amount Paid
  A              Plumber              x            x           $1,410
  B              Operator                          x           $3,554
  C             Mechanic                           x           $2,804
  D              Laborer                           x            $852
  E               Clerk                            x           $1,752
  F              Laborer                           x            $453
  G            Truck Driver                        x           $2,703
  H              Laborer              x            x            $354
  I              Laborer                           x            $647
  J             Supervisor                         x           $4,944
  K             Carpenter                          x            $850
  L              Foreman                           x           $5,602
  M              Laborer                           x            $420
  N              Laborer              x            x           $3,822
  O              Laborer              x            x            $398
  P         Mechanic Assistant                     x            $597
  Q              Laborer                           x            $564
  R              Laborer                           x            $365
  S            Truck Driver                        x           $1,433
  T            Truck Driver           x            x           $2,643
  U              Laborer                           x            $879
  V             Mechanic              x            x           $4,645
  W              Laborer              x            x           $1,627
  X             Mechanic                           x           $2,814
  Y              Laborer                           x           $2,168
  Z            Truck Driver           x            x            $478

  Audit Report 09099-02-SF                                                 24
                                     Timesheet   Timesheet
  Sample                             Not Signed  Not Signed
 Employee           Position        By Employee By Supervisor                Amount Paid
   AA               Operator                               x                    $3,432
   AB               Laborer                                x                    $1,012
   AC              Mechanic                                x                     $998
   AD               Operator                               x                    $3,639
   AE               Operator                               x                    $3,576
   AF               Laborer                                x                    $2,583
   AG                 Clerk                                x                     $259
   AH              Carpenter                               x                    $1,382
   AI          Mechanic Assistant                          x                    $3,352
   AJ               Laborer                                x                    $2,381
   AK               Laborer               x                x                     $321
   AL               Laborer                                x                    $1,250
TOTAL                                     9               38
TOTAL
AMOUNT                                                                         $72,963
PAID


This table represents the DEC timesheets that were not signed by the employee and/or the
supervisor.




   Audit Report 09099-02-SF                                                                25
Agency’s Response




                             USDA’S



                 Rural Utilities Service



     RESPONSE TO AUDIT REPORT




  Audit Report 09099-02-SF                 26
                                       United States Department of Agriculture
                                                 Rural Development




                                                                                                                           July 14, 2010




       SUBJECT:            Utilities Programs – Rural Alaskan Village Grant Program
                                   (Audit No. 09099-002-SF)

                TO:        Gil H. Harden
                           Assistant Inspector General for Audit
                           Office of Inspector General


Attached for your review is a copy of Rural Development’s response dated July 13, 2010, with
accompanying attachments, to the Official Draft of the subject audit.

This information is being submitted in order to reach management decision on the
recommendations in the subject audit.

If you have any questions, please contact Arlene Pitter Bell of my staff at 202-632-0083.



/s/

JOHN M. PURCELL
Director
Financial Management Division

Attachments




                                      1400 Independence Ave, SW • Washington, DC 20250-0700
                                                  Web: http://www.rurdev.usda.gov

                                             Committed to the future of rural communities.

                                       “USDA is an equal opportunity provider, employer and lender.”
           To file a complaint of discrimination write USDA, Director, Office of Civil Rights, 1400 Independence Avenue, S.W.,
                          Washington, DC 20250-9410 or call (800) 795-3272 (voice) or (202) 720-6382 (TDD).
                                         United States Department of Agriculture
                                                   Rural Development


                                                                                                                             July 13, 2010

       TO:        Gil H. Harden
                  Assistant Inspector General for Audit
                  Office of Inspector General

THROUGH: John M. Purcell
         Director
         Financial Management Division
         Rural Development

     FROM: Jonathan Adelstein                                   /s/
           Administrator
           Rural Utilities Service

SUBJECT:          Rural Utilities Service – Rural Alaskan Village Grant Program Audit (09099-02-
SF)

This is our response to the Office of Inspector General (OIG) Audit number 09099-02-SF draft
report dated May 25, 2010. We appreciate the OIG’s review of the Rural Alaskan Village Grant
(RAVG) program in response to concerns raised by our Rural Development (RD) Alaska State
Office. You conclude that RD’s State office internal controls over grant spending should be
strengthened in relation to deobligating grant funds and verifying project expenses. After careful
review of the report, we agree that controls should be strengthened. We note, however, that in
some circumstances cited, adequate documentation was able to be obtained from the State of
Alaska and the Alaska Native Tribal Health Consortium (ANTHC) in response to this report. In
addition, this response will provide information on actions taken and planned to improve the
RAVG program.

Deobligation

Recommendation 4

Determine whether the $607,915 and any subsequent reimbursements for the “VSW project and
program administration category were reasonable, allowable expenses. Collect any ineligible
reimbursements.




                                        1400 Independence Ave, SW • Washington, DC 20250-0700
                                                    Web: http://www.rurdev.usda.gov

                                               Committed to the future of rural communities.

                                         “USDA is an equal opportunity provider, employer and lender.”
             To file a complaint of discrimination write USDA, Director, Office of Civil Rights, 1400 Independence Avenue, S.W.,
                            Washington, DC 20250-9410 or call (800) 795-3272 (voice) or (202) 720-6382 (TDD).
                                                                                                      2

Response to Recommendation 4

The report makes recommendations related to deobligation of funding. First, the report
identified issues related to a $2.2 million grant for the completion of a water plant in Tuluksak.
Specifically, the report notes that despite attempts by USDA to obtain information from the
Alaska Department of Environmental Conservation (DEC) related to use of $607,915 in grant
funds for administrative purposes, inadequate documentation exists. It is recommended that we
determine whether the $607,915 and any subsequent reimbursements for the “VSW project and
program administration” category were reasonable, allowable expenses and further that we
collect any ineligible reimbursements.

USDA Rural Development renewed our efforts to obtain information regarding the
administrative costs associated with the Tuluksak project after receipt of the draft audit. In June
2010, USDA received from the State of Alaska documentation that supports $540,171.05 in
administrative expenses as shown below:

                     Verified USDA RD RAVG Administrative Expenses

             Description                   USDA Verified     Supporting Documentation
                                             Dollars*
2005 Salaries                                 $276,894.77 Exhibit 1 – 2005 signed
                                                          timesheets
2005 Travel, equipment and other              $190,314.11 Exhibit 2 – 2005 invoices and
eligible administrative expenses                          internal VSW/Alaska
                                                          documentation
 2007 Salaries, travel, equipment and          $61,095.68 Exhibit 3 – 2007 timesheets,
other eligible administrative expenses                    invoices and internal
                                                          VSW/Alaska documentation
2008 Salaries, travel, equipment and           $11,866.49 Exhibit 4 – 2008 timesheets,
other eligible administrative expenses                    invoices and internal
                                                          VSW/Alaska documentation
                                 Total        $540,171.05
                  Unsupported Costs               $67,743.95
*Note – USDA Verified dollars show the 75% pro-rated RD portion of the total verified
expenses.


Based on our review of the files submitted and email documentation provided from the State of
Alaska, the $67,743.95 is associated with timesheets from 2004 and early 2005. The State of
Alaska has stated that these timesheets were destroyed by the Alaska Department of Personnel
                                                                                                       3

and therefore are no longer available. They have requested that USDA RD accept data from the
VSW payroll system as a substitute. The system does not include digital signatures. Unless
other appropriate documentation is submitted, USDA RD will begin collection of the
unsupported costs.

Estimated Completion Date to Recommendation 4: Completed.

Recommendation 1

Instruct the Rural Development Alaska State office to forego use of the “stalled” policy and the
reallocation of funds until the policy and practice have been subjected to a formal approval
process.

Recommendation 2

If the “stalled” policy is approved, ensure that it incorporates all national office requirements in
addition to procedures for documenting the specific reasons why a project is declared “stalled.”

Recommendation 3

If the “stalled” policy is not approved, deobligate any remaining balances for “stalled” project
according to regulation, including any remaining balance for the “VSW project and program
administration” category.

Response to Recommendations 1-3

The report raised concerns regarding the informal process being used by RD’s Alaska State
Office and the Alaska DEC to declare a project “stalled” and then shift its funds to other projects
as needed. The report notes that, according to Federal regulation, obligated RUS grant funds that
are not needed to complete a proposed project must be deobligated. You recommend that RD’s
National Office instruct the Alaska State office to stop using the “stalled” policy and reallocating
funds until the policy is subjected to a formal approval process. Throughout fiscal year 2010,
USDA RD has been reviewing the RAVG processes and concluded in April that the informal
stalled policy should be ceased. Both the RD Alaska State Office and the Alaska DEC were
informed that any remaining funds associated with projects that are completed or not going to
proceed must be deobligated and returned to the USDA RAVG account. Those funds will be
available to fund new applications as they are processed.

This new policy has been implemented, and in June a review of RAVG’s obligated between
2000 and 2005 resulted in a deobligation request of $4,593,991 on June 18, 2010. (See
                                                                                                  4

Attachment B.) The Tuluksak 2004 project was the only stalled project that had funds
remaining. Those remaining funds as well as the unused 2004 Administrative funds ($142,085
of the $750,000 originally transferred) were part of the June 18 deobligation request. The
National Office is in the process of recapturing these funds through the Budget office and will
return these funds to the RD account as soon as the deobligation is completed.

Estimated Completion Date to Recommendations 1-3: Completed.

Recommendation 5

Implement and internal control process that ensures that expenses submitted for reimbursement
are allowable and that funds are used for intended purposes.

Response to Recommendation 5

Finally, the report recommends that USDA RD implement an internal control process that
ensures that expenses submitted for reimbursement are allowable and that funds are used for
intended purposes. We agree that improved internal controls would benefit the program
administration. The RD National and State Office are working with the State of Alaska to
implement an internal control process that improves accountability and is administratively
efficient for both entities.

Estimated Completion Date to Recommendation 5: October 31, 2010

Documentation

The report also identifies concerns regarding documentation of the use of RAVG funding on
certain ANTHC projects.
First, you determined that there was inadequate documentation to support $368,884 in expenses
charged to an RUS-financed FY 2003 project (R-38). You note that the ANTHC accounting
department lacked controls to ensure that supporting documents (e.g., invoices) contained the
required project code information prior to being processed for payment.

Recommendation 6
Verify through adequate supporting documents that the $368,884 in questioned costs pertained to
the St. Michael project code R38). Collect RUS’ share of any costs that cannot be verified.
                                                                                                  5

Response to Recommendation 6
As recommended, we have contacted ANTHC for adequate documentation to support the
$368,884 in questioned costs pertaining to the St. Michael project (project code R38). ANTHC
was able to provide documentation that specifically referenced the R38 St. Michael project with
the exception of $8,180.02. (See Exhibit 5 - documentation; Attachment C – ANTHC
spreadsheet summary of documentation and Attached D – Email from ANTHC concurring with
our assessment of supportable costs.) We will initiate collection of Rural Development’s
portion of the $8,180.02 that could not be verified.

Estimated Completion Date to Recommendation 6: 90 days from date of this response.

Recommendation 7

Instruct DEC to require ANTHC to develop accounting procedures to ensure that supporting
source documents contain the required project code information prior to payment.

Response to Recommendation 7

You also recommend that we instruct DEC to require ANTHC to develop accounting procedures
to ensure that supporting source documents contain the required project code information prior to
payment. ANTHC also provided a copy of their current accounting procedures that were
implemented in 2008. USDA RD will review the document and direct ANTHC to make changes
as needed to ensure full accountability related to RAVG funding.

Estimated Completion Date to Recommendation 7: October 31, 2010

Required Signatures on Timesheets
Finally, the report identifies an issue with signatures on timesheets on a particular project.
Specifically, of the 42 time cards reviewed from the City of Buckland project, you found that 38
did not have the signatures required to certify them for payment. You recommend that we obtain
adequate documentation to support that the questioned amount of $72,963 in salary expenses was
incurred for work performed on the FY 2000 Buckland project or collect RUS’ share of any
funds that cannot be verified.
                                                                                               6
Recommendation 8
Obtain adequate documentation to support that the questioned amount of $72,963 in salary
expenses was incurred for work performed on the FY 2000 Buckland project. Collect RUS’
share of any costs that cannot be verified.

Response to Recommendation 8
In June USDA RD contacted the State of Alaska to obtain adequate documentation as
recommended above. The State of Alaska was able to provide all 38 timesheets signed by a
supervisor. In an email response to USDA RD (see Attachment E), the State of Alaska
explained its payroll process as follows:
   •   Employees completed handwritten timesheets throughout the course of the pay period, and (in all
       but nine cases) signed them.

   •   The supervisor translated the handwritten timesheets into a computerized version, and printed
       and signed the computerized timesheet print-out.

   •   Both were sent to Elgee Rehfeld Mertz, and payroll was appropriately processed. The
       handwritten timesheets were saved in one PDF file, and the supervisor-signed timesheets in a
       separate PDF file at Elgee Rehfeld Mertz.

Copies of both the handwritten and electronic versions of the subject timesheets are attached in
exhibits F and G, respectively. According to the State of Alaska, it appears that the supervisor-
signed timesheet PDF file was missed, or was not properly made available to the OIG auditors.
With the provision of the timesheets, the salary expenses are supportable.
However, with regard to the nine timesheets identified without employee signatures, the State of
Alaska was not able to provide signed timesheets. In their response, the State of Alaska requests
that USDA accept equivalent documentation in accordance with OMB Circular A-87. Upon
review of submitted materials, RD accepted equivalent documentation for sample employees H,
O, and Z. (Attached in Exhibit F.) Documentation presented indicates that the State of Alaska
will not be able to provide equivalent documentation for the other six employee’s timesheets.
Therefore, USDA RD will begin collection of the $14,468 associated with these timesheets.

Estimated Time to Complete Recommendation 8: 90 days from date of this response.

Conclusion
RD is committed to improving delivery and accountability of the RAVG program. Our ultimate
goal is to ensure that all grant funds approved through the program result in completed water and
waste disposal infrastructure projects that provide access to clean, safe water and waste disposal
services for Native Alaskans. In support of this goal, senior officials from both the National
Office and the RD

Alaska State Office hosted a conference in Anchorage in April on the RAVG program.
Participants, including Alaska DEC, ANTHC, EPA and the Denali Commission, worked to
identify opportunities for streamlining processes and improve accountability. The result of the
conference will be a new MOU amongst the key participants and the implementation of a new
                                                                                          7
streamlined application process as well as actions to improve accountability. A full report on the
conference and its outcomes will be delivered to Congress in August.

In the interim, RD has begun, and will continue to, implement the recommendations contained
within this report. On a positive note, Alaska DEC and ANTHC were able to produce
documentation to support expenditure of the majority of funds included in the findings.
However, $4,593,991 funds will be deobligated and $90,391.97 in other funds will be collected
and returned to USDA accounts as a result of this audit. In addition, use of the stalled policy has
ceased and additional controls are being developed in conjunction with the Agency’s ongoing
RAVG streamlining effort.

We thank you for your review of the program and request that you consider the actions already
taken by RD, and the documentation provided by the State of Alaska and ANTHC in regard the
issues raised when making your final recommendations.
Attachments
